   DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                       Office of Audit Services, Region VII
                                                                       601 East 12th Street, Room 0429
                                                                       Kansas City, MO 64106

July 18, 2011

Report Number: A-07-11-05013

Ms. Melissa Halstead Rhoades
Area Director and Medicare Chief Financial Officer
Financial Management Operations Division
TrailBlazer Health Enterprises, LLC
8330 LBJ Freeway, 11.2402
Dallas, TX 75234

Dear Ms. Halstead Rhoades:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicare Fee-for-Service Payments Made by
TrailBlazer Health Enterprises, LLC, for Medicare Advantage Enrollees During Calendar Years
2007 and 2008. We will forward a copy of this report to the HHS action official noted on the
following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Scott Englund, Audit Manager, at (573) 893-8338, extension 27, or
through email at Scott.Englund@oig.hhs.gov. Please refer to report number A-07-11-05013 in
all correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Ms. Melissa Halstead Rhoades


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
 Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL

      REVIEW OF MEDICARE
  FEE-FOR-SERVICE PAYMENTS
 MADE BY TRAILBLAZER HEALTH
ENTERPRISES, LLC, FOR MEDICARE
    ADVANTAGE ENROLLEES
   DURING CALENDAR YEARS
        2007 AND 2008




                       Daniel R. Levinson
                        Inspector General

                           July 2011
                         A-07-11-05013
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                 EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people aged 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS), which administers the
program, contracts with Medicare contractors to process and pay Medicare claims submitted by
hospitals. The Medicare contractors use the Fiscal Intermediary Standard System and CMS’s
Common Working File (CWF) to process claims. The CWF can detect certain improper
payments during prepayment validation.

The Balanced Budget Act of 1997, P.L. No. 105-33, established Medicare Part C to offer
beneficiaries managed care options through the Medicare+Choice program. Section 201 of the
Medicare Prescription Drug, Improvement, and Modernization Act of 2003 revised Medicare
Part C. Among its changes, this law renamed the Medicare+Choice program the Medicare
Advantage program. Medicare Advantage organizations (MA organizations) receive capitation
payments from CMS to arrange and pay for all medically necessary services that are allowable in
the traditional Medicare fee-for-service (FFS) program. Under Medicare Part C, Medicare
beneficiaries may enroll in Medicare Advantage plans (MA plans) that are offered by MA
organizations.

Pursuant to Section 1886(d) of the Act, 42 CFR § 412.1(a) established the prospective payment
system (PPS) for Medicare inpatient hospital services. Under the PPS, Medicare contractors will
not make Medicare FFS payments for certain inpatient services, such as bed and board, nursing
services, and drugs, furnished to Medicare Advantage enrollees.

For inpatient claims, the status of the beneficiary’s enrollment in an MA plan on the hospital
admission date determines whether the MA organization or the Medicare contractor has payment
responsibility. MA organizations have payment responsibility for claims with services that
began on or after the Medicare Advantage enrollment date. Medicare contractors have payment
responsibility for claims with services that began before the Medicare Advantage enrollment
date.

TrailBlazer Health Enterprises, LLC (TrailBlazer), was awarded the CMS Parts A and B
Medicare administrative contractors (MAC) Jurisdiction 4 contract on August 3, 2007.
TrailBlazer was the fiscal intermediary prior to award of the MAC contract.

OBJECTIVE

Our objective was to determine whether Medicare FFS payments made by TrailBlazer to
hospitals for inpatient services furnished to Medicare Advantage enrollees complied with Federal
regulations.




                                               i
SUMMARY OF FINDINGS

Medicare FFS payments made by TrailBlazer to hospitals for inpatient services furnished to
Medicare Advantage enrollees did not always comply with Federal regulations. TrailBlazer
made $472,320 in unallowable payments for inpatient claims for beneficiaries who were enrolled
in MA plans.

TrailBlazer was not able to determine the beneficiaries’ enrollment status on the CWF at the time
it made these payments. Additionally, in each of these cases TrailBlazer did not receive an
Informational Unsolicited Response (IUR) from the CWF indicating that the beneficiary had
been retroactively enrolled in an MA plan.

We determined that at the time of the payments, controls were in place to verify the
beneficiaries’ enrollment status, and to promptly generate IURs in cases of retroactive
enrollments. These controls were adequate to stop improper FFS payments for services
furnished to the vast majority of Medicare Advantage enrollees.

TrailBlazer had not taken action on these 57 improper payments prior to our fieldwork.

RECOMMENDATIONS

We recommend that TrailBlazer:

   •   initiate overpayment recovery procedures to recoup and reimburse to the Federal
       Government $472,320 of improper payments from providers and

   •   generate an adjustment to update or cancel the claims in order to update both the CWF
       and the contractor history.

AUDITEE COMMENTS

In written comments on our draft report, TrailBlazer stated that it had taken actions to implement
our recommendations. TrailBlazer’s comments are included in their entirety as the Appendix.




                                                ii
                                                    TABLE OF CONTENTS

                                                                                                                                Page

INTRODUCTION..............................................................................................................1

    BACKGROUND ............................................................................................................1
       Medicare Contractors ...............................................................................................1
       Medicare Advantage Program .................................................................................1
       Claims for Inpatient Services ...................................................................................1
       Claims for Inpatient Services Provided to Medicare Advantage Enrollees .............2
       Retroactive Enrollment ............................................................................................2
       TrailBlazer Health Enterprises, LLC .......................................................................3

    OBJECTIVE, SCOPE, AND METHODOLOGY ..........................................................3
       Objective ..................................................................................................................3
       Scope ........................................................................................................................3
       Methodology ............................................................................................................3

FINDINGS AND RECOMMENDATIONS ....................................................................4

    FEDERAL REQUIREMENTS .......................................................................................5

    IMPROPER MEDICARE FEE-FOR-SERVICE PAYMENTS .....................................5

    RECOMMENDATIONS ................................................................................................5

    AUDITEE COMMENTS................................................................................................6

APPENDIX

    AUDITEE COMMENTS




                                                                      iii
                                              INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people aged 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS) administers the
program.

Medicare Contractors

CMS contracts with Medicare contractors to, among other things, process and pay Medicare
claims submitted by hospital inpatient departments. 1 The Medicare contractors’ responsibilities
include determining reimbursement amounts, conducting reviews and audits, and safeguarding
against fraud and abuse. Federal guidance provides that Medicare contractors must maintain
adequate internal controls over automatic data processing systems to prevent increased program
costs and erroneous or delayed payments. To process hospitals’ inpatient claims, the Medicare
contractors use the Fiscal Intermediary Standard System and CMS’s Common Working File
(CWF) to process claims. The CWF can detect certain improper payments during prepayment
validation.

Medicare Advantage Program

The Balanced Budget Act of 1997, P.L. No. 105-33, established Medicare Part C to offer
beneficiaries managed care options through the Medicare+Choice program. Managed care
organizations include health maintenance organizations, preferred provider organizations,
provider-sponsored organizations, and private fee-for-service organizations. Section 201 of the
Medicare Prescription Drug, Improvement, and Modernization Act of 2003 revised Medicare
Part C. Among its changes, this law renamed the Medicare+Choice program the Medicare
Advantage program. Medicare Advantage organizations (MA organizations) receive capitation
payments from CMS to arrange and pay for all medically necessary services that are allowable in
the traditional Medicare fee-for-service (FFS) program. Under Medicare Part C, Medicare
beneficiaries may enroll in Medicare Advantage plans (MA plans) that are offered by MA
organizations.

Claims for Inpatient Services

Pursuant to Section 1886(d) of the Act, 42 CFR § 412(a)(1) established the prospective payment
system (PPS) for Medicare inpatient hospital services. Under the PPS, Medicare contractors will



1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
(MAC) between October 2005 and October 2011. Most, but not all, of the MACs are fully operational; for
jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers continue to process
claims. For purposes of this report, the term “Medicare contractor” means the fiscal intermediary, carrier, or MAC,
whichever is applicable.


                                                         1
not make Medicare FFS payments for certain inpatient services, such as bed and board, nursing
services, and drugs, furnished to Medicare Advantage enrollees.

Claims for Inpatient Services Provided to Medicare Advantage Enrollees

CMS is responsible for ensuring that Medicare payments are made correctly. Weekly, MA
organizations transmit enrollment data to CMS, including information on when each Medicare
beneficiary enrolled and/or disenrolled in his or her MA plan. CMS maintains the enrollment
data on the Medicare Advantage Prescription Drug system (MARx), a system that is intended to
contain data on every Medicare beneficiary enrolled in an MA plan. CMS uses the enrollment
data on the MARx to update the enrollment data in the CWF, which is intended to contain
eligibility information for every Medicare beneficiary.

When hospitals submit claims for inpatient service, eligibility is verified through the CWF. If
the CWF indicates that the beneficiary is a member of an MA plan, the Medicare contractor
should deny the claim; however, there are some exceptions. For example, a provider may be
reimbursed on an FFS basis for a Medicare Advantage enrollee who elects hospice coverage or
who receives a service classified as a national coverage determination. 2 A provider may also be
reimbursed for direct graduate medical education costs, indirect medical education costs, and
services to Medicare beneficiaries in clinical trials.

For inpatient claims, the status of the beneficiary’s enrollment in an MA plan on the hospital
admission date determines whether the MA organization or the Medicare contractor has payment
responsibility. MA organizations have payment responsibility for claims with services that begin
on or after the Medicare Advantage enrollment date. Medicare contractors have payment
responsibility for claims with services that begin before the Medicare Advantage enrollment
date.

Retroactive Enrollment

A retroactive enrollment occurs when enrollment data are entered in the MARx after the
beneficiary’s actual enrollment date. For example, if a beneficiary enrolled in an MA plan on
January 1, 2007, but the enrollment data were not entered in the MARx until January 30, 2007,
the MARx would retroactively list the actual enrollment date as January 1, 2007. The actual
enrollment date should then be updated in the CWF.

The CWF generates an Informational Unsolicited Response (IUR) which provides the
identifying information regarding the claim submitted for a beneficiary retroactively enrolled in
an MA plan. The CWF electronically transmits the IUR to the Medicare contractor that
originally processed the claim.

Upon receipt of the IUR, the Medicare contractor must initiate overpayment recovery procedures
to retract the original Part A and Part B payments. The Medicare contractor must also generate



2
  A national coverage determination indicates coverage for a new service that was not included in the calculation of
the managed care capitation payment.

                                                          2
an adjustment to update or cancel the claim; this adjustment, in turn, updates both the CWF and
the contractor history.

TrailBlazer Health Enterprises, LLC

TrailBlazer Health Enterprises, LLC (TrailBlazer), was awarded the CMS Parts A and B
Medicare administrative contractors (MAC) Jurisdiction 4 contract on August 3, 2007.
TrailBlazer was the fiscal intermediary prior to award of the MAC contract.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Medicare FFS payments made by TrailBlazer to
hospitals for inpatient services furnished to Medicare Advantage enrollees complied with Federal
regulations.

Scope

Our audit included FFS payments made by TrailBlazer for certain inpatient services furnished to
Medicare Advantage enrollees who were enrolled in MA plans nationwide for at least 1 month
during calendar years (CY) 2007 and 2008. We reviewed internal controls to the extent
necessary to accomplish the audit objective.

Methodology

To accomplish our objective, we:

   •    reviewed Federal regulations related to payment liability for Medicare beneficiaries
        enrolled in MA plans, as well as program manuals and memorandums, issued by CMS to
        Medicare contractors, that provided instructions on which claims to pay;

   •    used the Enrollment Database to identify beneficiaries enrolled in an MA plan during
        CY 2007;

   •    obtained inpatient claims data for CYs 2007 and 2008 from the National Claims History
        and Standard Analytical Files for those beneficiaries enrolled in MA plans;

   •    identified Medicare FFS inpatient claims for services that began on or after the date that
        the beneficiary enrolled in the MA plan and before the beneficiary disenrolled from the
        MA plan;

   •    eliminated paid claims for enrollees who elected hospice coverage before being admitted
        to the hospital;

   •    eliminated paid claims for graduate medical education costs, indirect medical education
        costs, and costs associated with clinical trials;


                                                 3
   •   verified, using information in the CWF, both the eligibility of the Medicare beneficiary
       and the accuracy of the payment amount, and ensured that the payment had not been
       cancelled;

   •   provided TrailBlazer with detail data regarding 129 claims totaling $1,397,402 that were
       potentially paid in error, and, after discussing the possible causes of claims that were
       potentially paid in error with TrailBlazer officials:

           o eliminated 9 improper payments totaling $62,512 that had been cancelled and
             recouped prior to the start of our fieldwork and

           o eliminated 63 payments totaling $862,570 that were properly paid; and

   •    discussed the results of our review with TrailBlazer officials and provided them with the
       details of the 57 claims for which we had identified improper payments.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

Medicare FFS payments made by TrailBlazer to hospitals for inpatient services furnished to
Medicare Advantage enrollees did not always comply with Federal regulations. TrailBlazer
made $472,320 in unallowable payments for inpatient claims for beneficiaries who were enrolled
in MA plans.

TrailBlazer was not able to determine the beneficiaries’ enrollment status on the CWF at the time
it made these payments. Additionally, in each of these cases TrailBlazer did not receive an IUR
from the CWF indicating that the beneficiary had been retroactively enrolled in an MA plan.

We determined that at the time of the payments, controls were in place to verify the
beneficiaries’ enrollment status, and to promptly generate IURs in cases of retroactive
enrollments. These controls were adequate to stop improper FFS payments for services
furnished to the vast majority of Medicare Advantage enrollees.

TrailBlazer had not taken action on these 57 improper payments prior to our fieldwork.




                                                4
FEDERAL REQUIREMENTS

Pursuant to 42 CFR § 412.20(e)(3), inpatient hospital services will not be paid on an FFS basis if
“[t]he services are paid for by an [MA organization] … that elects not to have CMS make
payments directly to a hospital for inpatient hospital services furnished to the [MA
organization’s] … Medicare enrollees….”

CMS’s manuals instruct hospitals and Medicare contractors about the payment liability for
inpatient services for Medicare Advantage enrollees. Section 408 of CMS’s Hospital Manual
states: “If you are a PPS hospital and the patient changes his [Medicare Advantage] status
during an inpatient stay, his status at admission determines liability. If he was enrolled in the
[MA organization] before admission, the [MA organization] is responsible regardless of whether
he disenrolled before discharge.” Section 3654.1 of CMS’s Medicare Intermediary Manual
instructs Medicare contractors to “… not make a duplicate payment for the same services [for
which] the [MA organization] has paid.”

IMPROPER MEDICARE FEE-FOR-SERVICE PAYMENTS

For CYs 2007 and 2008, TrailBlazer made 57 improper payments totaling $472,320 for inpatient
claims for beneficiaries who were enrolled in MA plans. For example, one payment for $20,367
was made for an inpatient stay beginning on May 7, 2008, for a beneficiary who was enrolled in
an MA plan from November 1, 2007, to May 31, 2008.

TrailBlazer was not able to determine the beneficiaries’ enrollment status on the CWF at the time
it made these payments. Additionally, in each of these cases TrailBlazer did not receive an IUR
from the CWF indicating that the beneficiary had been retroactively enrolled in an MA plan. As
a result, TrailBlazer was unaware that the improper payments had been made. Therefore it did
not initiate overpayment recovery procedures to recoup the original payments, and it did not
generate an adjustment to update or cancel the claim in order to update both the CWF and the
contractor history.

We determined that at the time of the payments, controls were in place to verify the
beneficiaries’ enrollment status, and to promptly generate IURs in cases of retroactive
enrollments. These controls were adequate to stop improper FFS payments for services
furnished to the vast majority of Medicare Advantage enrollees.

TrailBlazer had not taken action on these 57 improper payments prior to our fieldwork.

RECOMMENDATIONS

We recommend that TrailBlazer:

   •   initiate overpayment recovery procedures to recoup and reimburse to the Federal
       Government $472,320 of improper payments from providers and

   •   generate an adjustment to update or cancel the claims in order to update both the CWF
       and the contractor history.


                                                5
AUDITEE COMMENTS

In written comments on our draft report, TrailBlazer stated that it had taken actions to implement
our recommendations. TrailBlazer’s comments are included in their entirety as the Appendix.




                                                6
APPENDIX
                               APPENDIX: AUDITEE COMMENTS 




                                                                                                      MEDICARE 

                                        ;,j~"i    ~'@'"
CENTERS f(Jf MEDJCAR£ &MEDKAIiJ SERIf/CES



     July 11, 2011

     PatrickJ. Cogley 

     Regional Inspector General for Audit Services 

     Office of Inspector General 

     Office of Audit Services. Region vn 

     601 Eatt 12th Street, Room 0429 

     Kansas City. MO 64106 


     Report Number: A-07-11-05013

     Dear Mr. Cogley:

     We received the June 16. 2011. draft report entiUed "Review of Medicare Fee-for-Service Payments
     Made by TrailBlazer Health Enterprises. LLC, fOf Medicare Advantage Enrollees During Calendar Years
     2007 and 2008." In the draft report, the OIG reconunended that TrailBlazer:
        • 	 hritiate overpayment recovery procedures ·to recoup and reimburse to the Federal Government
            $472,320 of improper payments from providers. and
            Generate an adjustment to update or cancel the claims in order to update both CWF and the
            contractor history.

     Please consider the following.responses to these recommendations for inc1usion.in the final report:

             Claim Cancelation and Recovery of Overpayments: As a result of this aUdit and prior to issuance
             of the draft audit report, TrailBlazer canceled the 57 claims identified as paid in error and recovered
             $472.320 in improper payments from the providers. The cancelation of the claim corrected both
             CWF and the claim history in the standard system. The recovery of the improper payments reduced
             the current claims payments made to the impacted providers. thereby reimbursing the Federal
             Govenunent for the improper payments.

     If you have any questions regarding our response, please contact me.

     Sincerely.

     lsi Melissa Halstead Rhoades

     Melissa Halstead Rhoades 

     Area Director & Medicare CFO 


     cc: 	       Terry Bird, Contracting Officer Teclmical Rep. Southern MAC Program Mgmt. Division
                 Gil R. Glover, President & Chief Operating Officer
                 Scott J. Manning, Vice President. Financial Mgt. Operations & J4 MAC Project Manager
                 Kevin Bidwell, Vice President & Compliance Officer




                                     TrailBlazer Health Enterprises, LLC
                                      Executive Center III- 8330 LBJ Freeway. Dallas, TX 15243-1213

                                                 A r.tm/care AdmInIstrative Contractor
